The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
             UNITED STATES INTERNATIONAL TRADE COMMISSION

                                       WASHINGTON, DC 20436


November 10, 2011                                                         OIG-JJ-025

Commissioners:

This memorandum transmits the Independent Auditor’s Report on Compliance with Laws and
Regulations (OIG-AR-12-04) associated with the audit of the Commission’s financial statements for
fiscal year 2011.

We contracted with the independent certified public accounting firm, Castro & Company LLC, to
conduct the financial statement audit. The contract required that the audit be conducted in accordance
with U.S. generally accepted government auditing standards and these auditing standards require a
report on Compliance with Laws and Regulations to be produced as part of the audit.

This report identifies one instance of non-compliance related to the Commission’s transit subsidy and
parking program that was identified last year. Because the Commission submitted a request for a
decision to the Government Accountability Office (GAO) on (1) the Commission’s past parking and
transit subsidy program, and (2) a proposed parking and transit subsidy program and is waiting for a
reply, there are no recommendations in this report.

Throughout the audit and at its conclusion, my office followed procedures and conducted a final
review designed to assure that the work performed by non-Federal auditors complied with the auditing
standards. Our final review disclosed no instances where Castro & Company did not comply, in all
material respects, with the U.S. generally accepted government auditing standards; however, this final
review cannot be construed as an audit, and is not intended to enable us to express, and we do not
express, any opinion on the Commission’s compliance with laws and regulations. Castro and
Company is solely responsible for this report dated November 8, 2011, and the conclusions expressed
in the report.

Thank you for the cooperation and courtesies extended to both Castro & Company and my staff during
this audit.

Sincerely,



Philip M. Heneghan
Inspector General
                                                                                   2121 Eisenhower Ave.
                                                                                   Suite 606
                                                                                   Alexandria, VA 22314
                                                                                   Phone: 703.229.4440
                                                                                   Fax: 703.859.7603
                                                                                   www.castroco.com
                                Independent Auditor’s Report on
                              Compliance with Laws and Regulations


Inspector General
U.S. International Trade Commission

We have audited the financial statements of the U.S. International Trade Commission (ITC) as of
and for the year ended September 30, 2011, and have issued our report thereon dated November 8,
2011.

The management of ITC is responsible for complying with laws and regulations applicable to ITC.
We performed tests of its compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts, and certain other laws and regulations specified in the Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended, including the requirements referred to in the Federal Managers’ Financial Integrity Act of
1982 (FMFIA). We limited our tests of compliance to these provisions, and we did not test
compliance with all laws and regulations applicable to ITC.

The results of our tests of compliance with applicable laws and regulations, and government-wide
policies described in the preceding paragraph disclosed one instance of reportable noncompliance,
which is a repeat finding from fiscal year 2010 that is required to be reported under Government
Auditing Standards or OMB guidance and is described in the following paragraphs.

Title 5 United States Code (U.S.C.) Section 7905, Programs to encourage commuting by means
other than single-occupancy motor vehicles, “allows a program to involve such options as Transit
passes; Furnishing space, facilities, or services to bicyclists; and any non-monetary [incentive] which
the agency head may otherwise offer under any other provision of law or other authority.”
Furthermore, Executive Order 13150 requires, “by no later than October 1, 2000, Federal agencies
shall implement a transportation fringe benefit program that offers qualified Federal employees the
option to exclude from taxable wages and compensation, consistent with section 132 of title 26,
United States Code, employee commuting costs incurred through the use of mass transportation and
vanpools, not to exceed the maximum level allowed by law.”

The Government Accountability Office’s (GAO) Principles of Federal Appropriations Law, Chapter
4, Section J (pages 271–274) states, “agencies must generally obtain parking accommodations
through the General Services Administration (GSA) under the Federal Property and Administrative
Services Act of 1949, as amended (Ch. 288, 63 Stat. 377 (June 30, 1949)), unless they have
independent statutory authority or a delegation from GSA.”

ITC does not have independent statutory or delegated authority to procure space and facilities to
provide for employee parking. As such, ITC’s program provides benefits that do not fully comply
with the requirements of GAO Principles of Federal Appropriations Law. In addition, ITC’s
program is also inconsistent with the requirements of 5 U.S.C. Section 7905, Programs to encourage
commuting by means other than single-occupancy motor vehicles, and Executive Order 13150,
Federal Workforce Transportation.
Independent Auditor’s Report on Compliance with Laws and Regulations
Page 2


During fiscal year 2011, ITC formally requested for GAO to make a determination on ITC’s past
parking program, and to approve its new proposed program. ITC is currently awaiting GAO’s
decision.

Providing an opinion on compliance with certain provisions of laws and regulations, and
government-wide policies was not an objective of our audit, and accordingly, we do not express such
an opinion.

This report is intended solely for the information and use of management and the Office of Inspector
General of ITC, OMB, GAO, and Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




November 8, 2011
Alexandria, VA
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
